:Y:1_* _*yo ? i :1_' TT_',? ::T',_:
NILES O'NEIL,
Petitioner,

Docket #

vs.

UNITED STATES OF AMERICA,
Respondent.

TO:

NOTICE OF MOTION
MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS
x

THE CLERK OF THE SUPREME COURT OF THE UNITED STATES

Kindly let this document be deemed the motion of petitioner Niles O'Neal
("Petitioner") for leave to proceed in forma pauperis before this Court. The
undersigned is his counsel, appointed by the United States Court of Appeals for the
Second Circuit (the "Second Circuit"), pursuant to the Criminal Justice Act.
Attached hereto is petitioner's petitior, ,o, a writ of certiorari directed" at the
Second Circuit's order entered November 24, 2020, in the criminal appeal styled
Uruited States u. Niles O'Neil, docket # 20-217, which granted the government's
motion for summary affirmance of a judgment of conviction and sentence entered
January 9,2020 in United States u. Niles O'Neil, docket # l9-cr-00163-GTS-1, in the
United States District Court for the Northern District of New York.

Petitioner proceeded in forma pauperis for the entirety of the proceedings
before the Second Circuit. Attached as Exhibit E to the appendix attached to the
attpched petition is the Second Circuit order dated January 30,2020, which rem-ains
effective, appointing your undersigned as counsel to petitioner pursuant to the
Criminal Justice Act, 18 USC S 3006.4.
WHEREFORE, and for reasons that to the Couri might seem just and proper,
Petitioner's motion for leave to proceed in forma pauperis here should be granted.
DATED: New York, New York
February 19,2O2l

ESQ.

Post Office Box 3196
New York, New York 10008
Tel: 917-553-6030
Counsel to Petitioner

